August 25, 2010

JORDAN M. SMALL
VICE PRESIDENT, OPERATIONS, NORTHEAST AREA

WILLIAM J. SCHNAARS
DISTRICT MANAGER, NEW YORK DISTRICT

SUBJECT: Audit Report – Facility Optimization: New York District
         (Report Number DA-AR-10-010)

This report presents the results of our audit of facility optimization in the New York
District (Project Number 09YG049DA000). The U.S. Postal Service Office of Inspector
General (OIG) initiated this audit due to the district’s high-risk ranking identified through
our Real Estate Risk Model (RERM). Our objective was to identify opportunities for the
New York District to optimize existing real estate. See Appendix A for additional
information about this audit.

The New York District uses 116 facilities with over 4.4 million interior square feet (SF).
While the district employs these facilities, it has experienced a significant reduction in
workload over recent years. From fiscal year (FYs) 2005 to 2009, mail volume has
dropped 23 percent. Customer traffic has also declined in post office lobbies as retail
transactions shift to alternate access locations. From FY 2005 to 2009, alternate access
revenue in the New York District has increased by 50 percent. The reduction in
workload provides an opportunity to reevaluate space needs and identify potential
excess space.

Conclusion

The New York District has 2.4 million square feet in excess of what their workload
suggests they need. A breakdown of excess space identified at sites visited in the
district indicated that 97 percent of the excess space was associated with main post
offices and plants. Postal Service has the option to optimize excess real property
through:

      Disposals – selling property.
      Outleasing – leasing owned property.
      Subleasing/Assignment – reassigning leased property.
      Development – investing in real estate projects.
Facility Optimization: New York District                                                      DA-AR-10-010



With two major efforts underway, the Postal Service has begun taking action to optimize
existing space. Specifically the New York District plans to dispose of 227,713 SF of this
excess through approved optimization projects, with another 62,000 SF planned for
evaluation in FY 2010. Although it has made progress, the Postal Service can do more
to dispose of excess interior space in a timelier manner.

Postal Service policy1 requires installation and district heads to annually review and
report excess property. The opportunity to optimize excess interior space in the New
York District exists because:

      Postal Service policy requires installation heads to report excess space, but does
       not provide the necessary guidance to effectively accomplish this task.

      The excess space reporting system does not track metrics such as dates or
       space conditions to allow for the prioritization of disposal actions.

We estimate that if the New York District initiates disposal2 action for the excess space
we identified, there is a potential opportunity to realize $446,258,222 over typical and
remaining lease terms. We consider this amount to be funds put to better use.3 See
Appendix B for our detailed analysis of this topic and Appendix C for our calculation of
monetary impact.

We recommend the district manager, New York District, in coordination with the
manager, Northeast Facility Service Office:

1. Ensure installation heads have the proper guidance for identifying and reporting
   excess space.

2. Include additional metrics, such as dates identified and space conditions, to track,
   monitor, and report excess space within the New York District and initiate disposal
   actions for excess space identified.




1
  Per the Administrative Support Manual (ASM) 13, Section 517.11, installation heads must review the inventory of
Postal Service-owned property at least annually to determine whether there are any properties the Postal Service no
longer needs and report that excess property through the Facilities Database. Section 517.34 states that installation
heads, district managers, and vice presidents of Area Operations should report all excess space in Postal
Service-owned or leased buildings.
2
  Disposal actions available include sale, termination of lease, consolidation, and/or subleasing. At a minimum, the
Postal Service can out-lease or initiate a sublet action for owned or leased property, respectively.
3
  Funds that could be used more efficiently by implementing recommended actions. This amount does not include
excess square feet that are part of approved node study.


                                                          2
Facility Optimization: New York District                               DA-AR-10-010



Management’s Comments

Management agreed with both of our recommendations and stated corrective actions to
address the recommendations will be in place by the end of Q2, FY 2011. While
management agreed to develop a more accurate process and additional metrics to
better manage excess space, management did not agree with the amount of excess
space or the potential monetary impact reported. Specifically, they disagreed with the
methodology used to calculate excess space, the cost factors used to value the excess
space, and the calculation of the monetary impact reported.

In reference to the level of excess space reported, management conveyed that our
methodology does not include allowances for:

    1. Unusable space such as basements and corridors. The audit treats every square
       foot as usable and leasable.

    2. Existing functions not included in standard designs.

    3. Inefficiencies in current building layouts and support space due to code
       requirements.

    4. Buildings considered historic property.

    5. Parking and dock space requirements.

    6. Large inflexible retail lobbies.

Management said that excess space related to the Church Street Station, the Morgan
Processing and Distribution Center (P&DC), and the Farley Building should not be
included in our calculations. In short, they believe the inclusion of those locations
skewed our conclusion because these sites had space that was sub-leased, not subject
to our methodology, and subject to sales terms, respectively.

In reference to the cost factors used in our calculations, management disagreed with
the:

       Number of facilities in the district.
       Level of approved optimization studies reported.
       Square foot value assigned to excess space.
       Build-out cost factors.

As such, management believes the accurate way to calculate monetary impact is by
multiplying usable excess space by sub-lease value less conversion cost. This
calculated outcome can then be adjusted for maintenance and utility savings.




                                            3
Facility Optimization: New York District                                                    DA-AR-10-010



Finally, management expressed the challenges facing the Postal Service when
disposing of property in poor market conditions and actions they have already taken to
reduce excess property. In particular, management has focused its attention on
properties that have more than 10,000 interior SF which represents 16 percent of
buildings and 76 percent of interior square feet. This allows the Postal Service to
capture the largest opportunities for usable excess space. See Appendix E for
management’s comments in their entirety.

Evaluation of Management’s Comments

The OIG considers management’s comments responsive to the recommendations and
management’s corrective actions should resolve the issues identified in the audit report.
With respect to the methodology used to calculate excess space, we did not determine
whether the excess space identified was usable, in part because Postal Service
systems do not identify usable areas. We agree that realty management policies and
systems need to be updated to define usable areas. According to commercial realty
standards,4 usable areas are generally measured from "paint to paint" inside the
permanent walls to the middle of partitions. No deductions are made for columns and
projections necessary to the building. Our calculations reflect these standards.

As it relates to the usability of basements, we note that Postal Service Headquarters
and many federal agency buildings use basement space. We did not include allowances
for existing functions, building layout inefficiencies, and inflexible spaces because the
Postal Service’s current space standards did not specify these allowances. Our audit
focused on interior excess space so excess parking and dock space was outside the
scope of the audit.

In reference to issues raised pertaining to the Church Street Station, the Morgan P&DC,
and the Farley Building; management said they were collecting rent from the Church
Street Station and offered to supply documentation supporting this claim. However,
management did not provide us with evidence of this during our audit. For the Morgan
P&DC, we did not measure against standards to determine excess space but rather
used excess space indentified by engineers selected by the area office. We have
previously reported that the Postal Service sold the Farley Building and leased back
part of the space. In that report,5 we questioned the wisdom of leasing back more space
than was needed for the delivery unit located there.

Postal Service management also conveyed that we did not consider the historic nature
of buildings and that they are possibly restricted in making changes to these buildings.
While we agree that there are properties held by the Postal Service that are historic in
nature, we do not feel this had a large impact in the presentation of our results. The
number of eligible historic buildings listed in the Postal Service’s systems account for
less than 1 percent of their properties. Also, while the Postal Service is required to


4
    www.boma.org
5
    Facilities Optimization: Controls Over the Selling of Assets, Report Number DA-AR-10-004, June 1, 2010



                                                          4
Facility Optimization: New York District                                   DA-AR-10-010



consult with historical organizations, they are not bound by those consultations or
decisions.

For clarification, the discrepancy in the number of facilities highlighted by Postal Service
is the result of limiting the scope of our audit to buildings classified as post offices in the
facilities database. We also included in our review processing plants located near
selected sites. The number of facilities conveyed by Postal Service includes all facility
classifications or types within the district. The cost factors used in our calculations
represent district averages recorded in Postal Service facility databases as of October
2009.

Postal Service management asserted that the audit team did not consider all the node
studies from FY 2009. We considered all the “approved” node studies, rather than
“completed” node studies. An “approved” node study represents concurrence by area
office management and therefore is an active consolidation effort. A “completed” node
study is merely a study of consolidation options in which the area office management
has yet to agree to a specific course of action.

We requested specific “build-out” costs from the Postal Service for the New York
District. The Postal Service responded that they do not have a methodology of
determining these costs at a national, area, or district level. As such, to determine build-
out cost we used the average build-out costs for the area as presented in their node
studies. We note that build out costs are negotiable and lessees, at times, absorb the
cost of conversion. We built in several tolerances relating to the size of excess space at
sites reviewed and considered the marketability of properties within the districts. We
recognized realty market conditions and discounted our excess space calculations by
the national commercial vacancy rate of 14 percent. As such, we consider our
presentation of monetary impact as fair and conservative.

Finally, we recognize the efforts made to optimize Postal Service real estate and
management’s attention to properties greater than 10,000 square feet. We believe that
once management modernizes its realty management systems to have greater visibility
of excess space, it will be able to better prioritize disposal actions associated with its full
building inventory.

The OIG considers all the recommendations significant, and therefore requires OIG
concurrence before closure. Consequently, the OIG requests written confirmation when
corrective actions are completed. These recommendations should not be closed in the
follow-up tracking system until the OIG provides written confirmation that the
recommendations can be closed.

We appreciate the cooperation and courtesies provided by your staff. If you have any
questions or need additional information, please contact Miguel Castillo, director,
Engineering and Facilities, or me at 703-248-4546.




                                               5
Facility Optimization: New York District       DA-AR-10-010




      E-Signed by Mark Duda
 VERIFY authenticity with ApproveIt




Mark W. Duda
Deputy Assistant Inspector General
 for Support Operations

Attachment

cc: Steven J. Forte
    Tom A. Samra
    Henry Burmeister
    Corporate Audit and Response Management




                                           6
Facility Optimization: New York District                                     DA-AR-10-010



                          APPENDIX A: ADDITIONAL INFORMATION

BACKGROUND

The New York District leases or owns 116 facilities with over 4.4 million interior SF to
process the mail. The consolidation or closure of facilities is a widely discussed topic
due to declining mail volume and the resulting financial condition of the Postal Service.
In response, Postal Service Facilities and Retail Management organizations have
implemented initiatives to optimize space, namely, initiation of the Facility Optimization
Program and the Station and Branch Optimization Consolidation (SBOC) program.

In April 2008, the vice president of Facilities initiated the Facility Optimization Program
to balance the portfolio of existing delivery facilities with the Postal Service’s current and
projected space needs. The program’s objectives are to generate revenue and reduce
rent obligations and operational costs. The process entails identifying, investigating,
analyzing, and approving space before executing the approved optimization action. The
Northeast Area has 27 approved optimization studies, with four in the New York District.

Established in May 2009, the SBOC program provides tools and strategies to evaluate
the effectiveness of Postal Service retail placement in support of the Transformation
Plan’s goals of improved service and increased revenue. At the district level, New York
initially identified 30 locations for review.

To supplement and expand on existing Postal Service initiatives, the OIG developed a
Real Estate Risk Model (RERM) to identify and prioritize emerging facility risk. The risk
model measures facility performance results by district for the following nine metrics:

                                           Table 1. Risk Metrics

                                      RERM METRICS
Ratio of Mail Volume to Interior Square Footage Excess Postal Service Identified Interior
                                                Space
Ratio Revenue to Interior Square Footage        Excess Land
Ratio of Total Expense to Interior Square       Facility Condition
Footage
Ratio of Employees to Interior Square Footage   Density, Geographic Location
Ratio of Retail Revenue to Total Expense

The New York District ranked third most at risk of all 74 districts as of Quarter 2, FY
2010.




                                                        7
                                             Restricted Information
Facility Optimization: New York District                                                      DA-AR-10-010




OBJECTIVE, SCOPE, AND METHODOLOGY

Our objective was to identify opportunities for the Postal Service’s New York District to
optimize existing real estate. We visited 39 of 116 facilities in the New York District, which
represents 83 percent of OIG-calculated total excess space. The scope of the audit
included main post offices, carrier annexes, stations, branches, and mail processing
facilities. To accomplish our objective we visited selected facilities, conducted interviews,
and examined other relevant materials.

We used Postal Service criteria6 for new space projects to establish space requirements
for post office facilities in the New York District. Our excess space metric subtracts the
earned facility size from the actual facility size7 to calculate the excess space. To
determine the earned facility size, we used the Space Requirements Model matrix8. The
matrix computes earned space based on the delivery and retail workload conducted at
each site. We compared workload data from Postal Service databases9 to the number of
carrier routes, the number of rented post office box sections, and peak window usage.
Our method differs from existing Postal Service initiatives10 because it focuses on the total
facility size, not specific operations. We designed our metric primarily for customer
service facilities. We obtained the measurements for excess space at processing plants
from respective industrial engineers.

Facilities management suggested we use detailed facility information available in
recently conducted space surveys to calculate our excess space. This approach would
provide greater insight into the type and location of space designated as excess. While
this method has merit, we were not able to use this approach because the space
surveys were conducted only at buildings with 10,000 or more net interior square feet.
These buildings — while containing the majority of the Postal Service interior space—
only accounted for 16 percent of the total number of facilities nationally. Consequently,
we opted to use a global approach and assess excess space at the total facility level.

We modified our metric as follows to address obstacles in applying it to existing real
estate resources:

         We established thresholds to remove post offices with less than 100 SF of
          excess space and carrier annexes with less than 300 SF of excess space.

         We used Non-Flat Sequencing System building standards for customer service
          sites.


6
 We used Postal Service criteria established in March of 2007 outlined in a letter issued by the senior vice president
of Operations.
7
    Interior square footage obtained from the electronic Facilities Management System (eFMS).
8
  . In support of newly established criteria, the Headquarters Facility Group, Planning and Approval, designed matrices
to assist with space requirements for planned facilities. We used the Space Requirements Matrix for Non-Flat
Sequencing System (FSS) offices.
9
   WebBATS Monthly Summary Data for issued P.O. Box information, Intelligent Mail and Address Quality (IMAQ)
Delivery Statistics Summary for route information, and Retail Data Mart for earned peak modeled window staffing.
10
    SBOC and Facilities Optimization Program.
                                                           8
Facility Optimization: New York District                                 DA-AR-10-010



       We provided additional support space by calculating retail and delivery space
        requirements separately.

       We provided additional delivery space for facilities with more than 51 routes. The
        additional routes received the space designated for a separate total facility
        instead of following the Postal Service practice of adding an additional 123 SF
        per route.

       At facilities with unique functions, we either subtracted the space dedicated to
        that function from our metric or relied on Postal Service expertise to provide us
        with an accurate account of the building’s excess space.

       Furthermore, we reduced our total monetary impact by 14 percent to address the
        difficulty in achieving a 100 percent realization of optimization efforts. The
        reduction correlates directly to the national vacancy rate for commercial real
        estate.

We conducted this performance audit from September 2009 through August 2010 in
accordance with generally accepted government auditing standards and included such
tests of internal controls as we considered necessary under the circumstances. Those
standards require that we plan and perform the audit to obtain sufficient, appropriate
evidence to provide a reasonable basis for our findings and conclusions based on our
audit objective. We believe that the evidence obtained provides a reasonable basis for
our findings and conclusions based on our audit objective. We discussed our
observations and conclusions with management officials on June 14, 2010 and July 15,
2010, and included their comments where appropriate.

We assessed the reliability of facility-related data by verifying the accuracy of computer-
generated information by making observations during facility tours and interviewing
agency officials knowledgeable about the data. We determined the data used was
sufficiently reliable for the purposes of this report.




                                             9
  Facility Optimization: New York District                                     DA-AR-10-010




  PRIOR AUDIT COVERAGE

  The following audit reports are relevant to the Postal Service’s facility infrastructure.

                                                Final
                                   Report
      Report Title                             Report                   Report Results
                                   Number
                                                 Date
Restructuring the U.S.         GAO-09-937SP   7/28/2009   The Government Accountability Office
Postal Service to Achieve                                 added the U.S. Postal Service’s financial
Sustainable Financial                                     condition to the list of high-risk areas
Viability                                                 needing attention by Congress and the
                                                          executive branch to achieve broad-based
                                                          transformation. It recognized the need to
                                                          reduce the facility infrastructure. There is no
                                                          Postal Service response in the report.
Federal Real Property: An       GAO-09-801T   7/15/2009   Federal agencies have taken some positive
Update on High-Risk                                       steps to address real property issues but
Issues                                                    some of the core problems that led to the
                                                          designation of this area as “high-risk”
                                                          continue to persist. There is no Postal
                                                          Service response in the report.
Network Rightsizing             GAO-09-674T   5/20/2009   The Postal Service will require actions in a
Needed to Help Keep                                       number of areas, such as rightsizing its retail
USPS Financially Viable                                   and mail processing networks by
                                                          consolidating operations and closing
                                                          unnecessary facilities. The Postal Service
                                                          generally agreed with the accuracy of the
                                                          statements and provided technical
                                                          comments, which we incorporated.
Use of Existing Postal         SA-AR-08-007   3/21/2008   The Pacific, Great Lakes, New York Metro,
Owned Space – Capping                                     and Southeast Areas did not monitor or
                                                          actively track and report underutilized and
                                                          vacant space. Management agreed with the
                                                          recommendation.




                                                 10
Facility Optimization: New York District                                                       DA-AR-10-010




                                 APPENDIX B: DETAILED ANALYSIS

Excess Space is Significant in the New York District

Based on facility space requirements, 11 we calculated that the New York District
maintains 2.4 million SF more than what is required for its current operational workload,
and this amount can be considered potential excess space. As depicted in Chart 1,
excess space was 55 percent of the total interior square footage.

                  Chart 1 – District Interior and Excess Space Comparison




Table 2 shows the breakdown of interior square footage and OIG-calculated excess for
the 39 visited facilities in the New York District. Of the excess space at the sites visited,
stations (post offices) contributed to 83 percent, while plants contributed to 14 percent,
finance stations to 2 percent, and carrier annexes to 1 percent.




11
   We used Postal Service criteria established in March of 2007 outlined in a letter issued by the senior vice president
of Operations. In support of this newly established criteria, the Headquarters Facility Group, Planning and Approval,
designed matrices to assist with the space requirements of planned facilities.
                                                          11
Facility Optimization: New York District                                         DA-AR-10-010




                        Table 2. Excess Space by Facility Type Visited

                                                                      OIG 
                         Facility     Percentage   Percentage  of 
  Type of Facility                                                 Calculated       Interior SF 
                         Count         of Count        Excess 
                                                                     Excess 
Stations                   20              51%          83%        1,646,671        2,019,171 
Plants                      2              5%           14%         279,065         1,373,025 
Finance Station            14              36%           2%         40,587           82,246 
Carrier Annex               1              3%            1%         30,645           266,112 
APC Site Only               1              3%            0%           243              943 
FND Station 
                            1               3%           0%             ‐              508 
(Macy's) 
Grand Total                39              100%         100%       1,997,211        3,742,005 

To highlight excess space in the New York District, Illustration 1 depicts two facilities
with excess interior space. Morgan Processing & Distribution Center (P&DC) is a Postal
Service-owned plant with three vacant floors. The Radio City Station is another owned
facility which houses delivery and retail operations with one vacant floor. Both are
located near other Postal Service facilities also maintaining excess space.

Illustration 1 – Examples of Excess Space
New York Morgan P&DC                                    Radio City Station
Interior SF: 1,197,825                                  Interior SF: 65,229
OIG Excess SF: 277,785                                  Earned SF: 20,000
                                                        OIG Excess SF: 45,229




See Appendix D for detailed earned space information on each of the facilities visited
during fieldwork.




                                                   12
Facility Optimization: New York District                                       DA-AR-10-010




Causes for Excess Interior Space

The opportunity to optimize excess interior space in the New York District exists
because:

        Postal Service policy requires installation heads to report excess space, but does
         not provide the necessary guidance to effectively accomplish this task.

        Facility systems do not track metrics such as dates identified or space conditions
         to allow effective management of excess space.

Guidance Can Be Improved

A review of the Facility Database User Guide shows it does not provide sufficient
guidance for identifying excess space using the workload-driven space requirements.
For example, the facility database space survey asks installation heads to objectively
answer “Do you have any vacant space in your facility that is in leasable condition and
has access that does not compromise the security of the operation?” without providing
further guidance or referencing space standards. While we identified excess space at
103 of the 116 Postal Service facilities, only two locations answered “yes” to the vacant
leasable space survey question. Further, our interviews revealed that Operations
employees were unaware of the method used to identify excess space at their facility.

Facility Systems Do Not Allow for Effective Management of Excess Space

The Postal Service is experiencing considerable workload decline, which has resulted in
significant excess space. However, the electronic systems that manage facility space do
not collect or monitor metrics such as length of time space is underutilized or vacant or
its condition to efficiently prioritize disposal actions.

For comparison purposes, we benchmarked Postal Service facility practices against the
General Services Administration’s (GSA) realty management practices and found that
GSA “ages” it’s available space for tracking, monitoring, and decision-making. The
Postal Service does not have the ability to age excess space, as dates on entry are not
collected.

The GSA’s Public Buildings Service also manages its leased portfolio by focusing on
four primary areas: reducing vacancy, managing lease administration expenses,
managing customer requirements, and analyzing market trends.12 Similarly, owned
facilities are monitored and analyzed using performance metrics such as revenue, funds
from operations, operating costs, vacancy, net operating income, and return on equity.
The Postal Service facility management systems are not able to manage property in this
manner. For example, rents from leases or subleases are tracked manually using
electronic spreadsheets.
12
   State of the Portfolio FY 2008 at:
http://www.gsa.gov/Portal/gsa/ep/channelView.do?pageTypeId=8199&channelPage=%2Fep%2Fchannel%2FgsaOve
rview.jsp&channelId=-24880
                                                 13
Facility Optimization: New York District                               DA-AR-10-010




Additionally, because the Postal Service’s eFMS calculates space based on delivery
and retail metrics, the excess space reported for processing and distribution plants is
inaccurate. Therefore, it is not a reliable source for identifying how much excess space
is available in its plants. The Postal Service plans to measure plants and update the
facility database. To complete this task for our report, we requested industrial
engineers, working with local in-plant support, use blueprints to identify processing
equipment, staging areas, manual work areas, and excess space.

We estimate if the New York district initiates disposal actions, there is a potential
opportunity to realize $446,258,222 over typical and remaining lease terms. We
consider this amount funds that could be used more efficiently or put to better use. See
Appendix C for the monetary impact calculation and assumptions.




                                           14
    Facility Optimization: New York District                                                                                                 DA-AR-10-010




                                                                      APPENDIX C: MONETARY IMPACTS
                                                                        FUNDS PUT TO BETTER USE
Excess Interior Space
Monetary Impacts
Project year           0                  1               2                3              4              5              6              7               8              9            10


Fiscal year           2010              2011            2012              2013           2014           2015           2016           2017           2018           2019          2020


Facilities
Owned**
Sublease
Value                ($71,647,568)   $77,103,874     $77,103,874       $77,103,874    $77,103,874    $77,103,874    $77,103,874    $77,103,874    $19,275,969
Utility
Savings                               $3,130,668      $3,193,281       $3,257,147     $3,322,290     $3,388,735     $3,456,510     $3,525,640      $881,410
custodial
savings                               $2,477,700      $2,477,700       $2,477,700     $2,477,700     $2,477,700     $2,477,700     $2,477,700      $619,425

Leases
Expiring FY
2009***              ($10,034,487)   $10,798,662     $10,798,662       $10,798,662    $10,798,662    $10,798,662
Utility
Savings                               $438,461        $447,230          $456,175       $465,298       $474,604
custodial
savings                               $347,010        $347,010          $347,010       $347,010       $347,010

Leases                ($7,870,586)    $8,469,969      $8,025,349       $6,962,977     $5,651,057     $3,603,031     $3,353,827     $2,862,702      $2,302,962     $2,218,917     $787,222
Expiring
After
10/1/2010
Utility                                   $367,103        $356,031         $318,273       $268,110       $183,461       $175,958       $130,899        $107,411       $105,561     $38,200
Savings
custodial                                 $272,179        $257,891         $223,752       $181,594       $115,782       $107,774        $91,992         $74,005        $71,304     $25,297
savings



                     ($87,550,141)   $101,093,875    $100,693,529      $99,630,285    $98,298,489    $96,173,896    $86,675,643    $86,192,808    $23,261,182     $2,395,782     $850,718
Subtotal
Cash Flows @         ($75,293,121)   $86,940,733     $86,596,435       $85,682,045    $84,536,700    $82,709,551    $74,541,053    $74,125,815    $20,004,616     $2,060,373     $731,618
Sub Lease
Efficiency Rate
Discounted at        ($75,293,121)   $84,000,708     $80,838,698       $77,280,296    $73,668,851    $69,639,222    $60,639,195    $58,262,220    $15,191,737     $1,511,759     $518,657
USPS cost of
borrowing
                                                                         Net Present Value: $446,258,222
                        Build-Out Costs SF                            $40.05                    Utilities Savings SF per Year        $1.75
                        Lease Savings SF per Year                     $43.10                    Utility Cost Escalation Rate          2.00%
                        USPS Cost of Borrowing                           3.50%                  Custodial Rate SF                    $2.77
                        Sub-lease Efficiency Rate                      86.00%
                                                                 Assumption: **Weighted Average
                                                                                           15     Lease Years = 7.3
                                                                                 Restricted Information
Facility Optimization: New York District                                                    DA-AR-10-010




Value Assigned to Excess Space
The lease cost per square foot for the New York District is $43.10. Using Facility
Inventory Reports from the eFMS, we calculated this figure by dividing total interior
square footage by total lease costs. The value is similar to $81.63,13 the average square
foot cost for leasing commercial retail and office space in the district.

Utility Costs Associated with Excess Space
The utility cost per square foot for the New York District is $1.75, with a cost escalation
rate of 2 percent. Using the Financial Performance Report (FPR), Line 42, we
calculated this figure by dividing total annual utility expenses for FY 2009 by the
district’s total interior square footage.

Maintenance Costs Associated with Excess Space
The maintenance cost per square foot for the New York District is $2.77. We calculated
this figure by dividing the total annual maintenance expenses14 (FY 2009) by the
district’s total interior square footage. However, we reduced the cost by 50 percent
based on previously identified savings in a custodial maintenance audit.15

Build-Out Costs Associated with Implementing Optimization Actions
The build-out cost per square foot for the New York District is $40.05. We calculated
this figure by dividing the “build-out/Line 63 capital” costs for all approved optimization
node studies in the Northeast Area by the total reduction in square footage identified in
the approved node studies.

Ownership of Facility and Term Years
We categorized all facilities within the district by ownership – leased versus Postal
Service-owned. We further grouped the leased properties by the number of term years
remaining in the lease.

We calculated leases expiring before the end of FY 2010 based on the assumption the
leases would be renewed for the standard 5-year period. We calculated leases expiring
after October 1, 2010 for the remaining lease term; and calculated Postal Service-
owned facilities over a period of 7.3 years, which was the historical national average
lease term.

Sublease Efficiency Rate
We obtained the national commercial property vacancy rate of 14 percent from the
National Realty Association for industrial and retail space. As such, we reduced the net
present value savings realization to an 86 percent “success rate.”




13
   Realtor.com analyzes comparable private sector commercial retail and office space properties to determine
average square footage costs.
14
   eFlash (Labor Distribution Code 38, Salary and Benefits) + FPR, Line 3F, Contract Cleaners Costs
15
   Custodial Maintenance Audit Report, (Report Number DA-AR-09-011, dated August 13, 2009).
                                                         16
                                               Restricted Information
 Facility Optimization: New York District                                                 DA-AR-10-010



                                 APPENDIX D: FACILITIES VISITED


                                                                                          Square
                                                                                                         Potential
                                                         Interior      Total Earned       Feet In
                                            Type of                                                       Excess
        Facility Name                                    Square         Bldg Size        Approved
                                            Facility                                                      Square
                                                         Footage       From Matrix         Node
                                                                                                         Footage
                                                                                          Study16
JAMES A. FARLEY                          Station            250,000           21,500                         178,500
LENOX HILL S & N/FDR                  Carrier Annex         266,112           25,500                          30,645
GRAND CENTRAL STATION                    Station            159,051           27,500        150,000          131,551
BRONX/ P&DC                               Plant             175,200                -                           1,280
MADISON SQUARE                           Station             82,113           15,500                          66,613
TIMES SQUARE STATION                     Station             90,095           21,500                          68,595
PECK SLIP STATION                        Station             65,372            9,500         30,000           55,872
CANAL STREET STATION                     Station             69,200           19,500                          49,700
RADIO CITY STATION                       Station             65,229           20,000                          45,229
MIDTOWN STATION                          Station             44,384           12,000                          32,384
GRACIE                                   Station             56,292           28,000                          28,292
ANSONIA STATION                          Station             44,979           19,000                          25,979
COOPER STATION                           Station             37,600           17,500                          20,100
GREELEY SQUARE                          Finance              26,500            4,000                          22,500
OLD CHELSEA STATION                      Station             41,685           20,000                          21,685
LENOX HILL STATION                       Station             30,615           15,500                          15,115
PETER STUYVESANT STATION                 Station             28,000            9,500                          18,500
VILLAGE STATION                          Station             27,200           11,000                          16,200
ROCKEFELLER CENTER                      Finance              17,625            8,500                           9,125
KNICKERBOCKER STATION                    Station             23,025           11,000                          12,025
COLUMBUS CIRCLE                         Finance               7,900            3,500                           4,400
HIGHBRIDGE                               Station             12,700           10,000                           2,700
BRYANT                                  Finance               5,977            4,500                           1,477
MORRISANIA                               Station             10,591            8,500                           2,091
MORRIS HEIGHTS                           Station             11,262            8,000                           3,262
WHITEHALL RETAIL UNIT                   Finance               4,300            3,500                             800
HANOVER FINANCE STATION                 Finance               4,000            3,500                             500
APPRAISERS STORES                       Finance               3,145            2,000                           1,145
CHINATOWN                               Finance               2,856            3,500                               -
CHEROKEE                                Finance               3,800            3,500                             300
PATCHIN                                 Finance               2,152            3,000                               -
PITT                                    Finance               1,391            2,000                               -
PORT AUTHORITY CONV                     Finance               1,445            2,000                               -
MELCOURT                                Finance                 840              500                             340

 16
   Prince and Murray facilities were not sampled, however they have 47,713 combined is SF Effected by Node
 Studies
                                                       17
 Facility Optimization: New York District                                         DA-AR-10-010



                                                                                   Square
                                                                                                 Potential
                                                        Interior   Total Earned    Feet In
                                            Type of                                               Excess
        Facility Name                                   Square      Bldg Size     Approved
                                            Facility                                              Square
                                                        Footage    From Matrix      Node
                                                                                                 Footage
                                                                                   Study16
DAG HAMMARSKJOLD                              APC            943            700                        243
MACYS FINANCE                               FND S            508          2,000                          -
26 FEDERAL PLAZA STATION                    Finance          315          3,000                          -
CHURCH STREET STATION                       Station      869,778         17,500                    852,278
NEW YORK MORGAN P&DC                         Plant     1,197,825              -                    277,785
TOTALS                                                 3,742,005        397,700    180,000       1,997,211




                                                       18
Facility Optimization: New York District                     DA-AR-10-010



                         APPENDIX E: MANAGEMENT’S COMMENTS




                                           19
Facility Optimization: New York District        DA-AR-10-010




                                           20
Facility Optimization: New York District        DA-AR-10-010




                                           21
Facility Optimization: New York District        DA-AR-10-010




                                           22
Facility Optimization: New York District        DA-AR-10-010




                                           23
Facility Optimization: New York District        DA-AR-10-010




                                           24
